Office of Inspector General

January 28, 2014

The Honorable Sylvia Mathews Burwell, Director
Office of Management and Budget
725 17th Street, NW
Washington, DC 20503

SUBJECT:             Fiscal Year 2013 Report on USAID’s Implementation of Audit Recommendations
                     Relating to Travel and Purchase Cards

Dear Director Burwell:

This is the U.S. Agency for International Development (USAID) Office of Inspector General’s
(OIG’s) first annual report on USAID’s implementation of audit recommendations relating to
travel and purchase cards, required under the Government Charge Card Abuse Prevention Act of
2012 (Public Law 112-194). The Office of Management and Budget (OMB) provided guidance
for interpreting the law’s requirements in OMB Memorandum M-13-21, “Implementation of the
Government Charge Card Abuse Prevention Act of 2012.” OMB directed that executive agency
OIGs report annually on the implementation of recommendations concerning purchase and travel
cards, including both open recommendations and those closed during the prior fiscal year.

A thorough search of OIG audit recommendations relating to USAID’s travel or purchase card
(including convenience check) programs did not reveal any open recommendations. However,
we identified six recommendations that USAID closed in fiscal year (FY) 2013 relating to its
travel card program and summarize USAID’s implementation of these recommendations in the
attachment to this letter. We did not identify any recommendations closed in FY 2013 relating to
USAID’s purchase card program.

                                                      Sincerely,

                                                      /s/
                                                      Michael Carroll
                                                      Acting Inspector General

Attachment




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
                                                                                                      Attachment


                 USAID’s Implementation of the Six OIG Audit Recommendations
                     Closed in FY 2013 Related to Its Travel Card Program
             Recommendation                           Management Decision                 Final Action
Audit of Selected Payments by USAID/Egypt for Evacuation Travel and Related Allowances,
Report No. 6-263-12-001-P (12/13/2011)
Recommendation 3. That USAID/Egypt              USAID/Egypt partially concurred.    On 3/5/12,
issue a written reminder to all employees to    It issued a written reminder        USAID/Egypt issued
adhere to Agency guidelines that require the    (Mission Notice) on 8/18/11 but     “Staff Notice No. 12-
use of the government travel card in lieu of    did not identify penalties for      03, “Penalties for an
an advance of funds and publicize the           nonuse. USAID/Egypt stated it       Administrative
possible penalties for not following the        would be inappropriate for it to    Infraction: Non-use of
guidelines.                                     develop penalties for an Agency-    Government
                                                wide matter.                        Sponsored Credit
                                                                                    Card.” Closed 12/3/12.
Recommendation 4. That USAID/Egypt              USAID/Egypt disagreed, stating:     On 3/5/12,
determine the type of offense [for not using    “In the absence of Agency           USAID/Egypt issued
travel cards in lieu of advances], administer   guidelines it would not be          “Staff Notice No. 12-
the appropriate penalty, and document the       appropriate for the Mission to      03, “Penalties for an
appropriate mission or personnel file           construct a penalty.” It decided    Administrative
accordingly.                                    no oral admonishment was            Infraction: Non-use of
                                                necessary for nonuse of travel      Government
                                                cards during the 2011 civil         Sponsored Credit
                                                emergency in Egypt and post         Card.” Closed 12/3/12.
                                                evacuation.
Recommendation 8. That USAID/Egypt              USAID/Egypt concurred. It           USAID/Egypt
review employees’ payment requests for          collected $240 on 10/12/2011        increased the
lodging to determine the allowability of all    and planned to collect the          disallowed amount by
payments including the identified questioned    remaining questioned costs by       $1,160 for a total
costs of $657, $240, and $225 and recover       9/30/2012.                          recovery of $2,282
from the employees any amounts                                                      from the evacuees.
determined to be unallowable.                                                       Closed 3/4/13.
Audit of USAID/Egypt’s Emergency Preparedness and Evacuation Travel Payments,
Report No. 6-263-12-005-P (2/9/2012)
Recommendation 3. That USAID/Egypt              USAID/Egypt concurred. It           USAID/Egypt
determine the allowability of questioned        initially determined that $995 of   ultimately recovered
costs valued at $4,175 and nonpayment of        the $4,175 was allowable and        $3,299.66 in
$1,111, and recover from or remit to            that $1,072 of the $1,111           disallowed costs and
employees amounts as deemed                     nonpayment was due                  remitted $271.39.
appropriate.                                    employees.                          Closed 3/25/13.
Recommendation 4. That USAID/Egypt              USAID/Egypt concurred. It           USAID/Egypt began
provide and document training to financial      developed training, which it        conducting training on
management employees about regulations          planned to conduct by 4/30/12.      4/26/2012. Closed
governing evacuation entitlements.                                                  12/6/12.
Recommendation 8. That USAID/Egypt              USAID/Egypt disagreed with the      USAID/Egypt issued a
include the requirement for the use of the      specific remedy included in the     mission notice on use
government-sponsored travel card in             recommendation, stating that        of the travel card,
Section 7 of the AID 5-8 Travel                 publication of a mission notice     which will be attached
Authorization Form to remind employees of       would be more effective and         to employee travel
their financial management responsibilities.    efficient.                          authorizations. Closed
                                                                                    12/6/12.
